     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO


FEMA Public Assistance Grant Funds Awarded to City
              of Vacaville, California




DS-12-13                                August 2012
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit applying the statutes, regulations, and FEMA
   policies and guidelines in effect at the time of the disaster.

   We discussed issues related to this audit with FEMA, Cal EMA, and City officials;
   reviewed judgmentally selected samples of project costs (generally based on dollar
   value); and performed other procedures considered necessary to accomplish our
   objective. We did not assess the adequacy of the City’s internal controls applicable to
   grant activities because it was not necessary to accomplish our audit objective. We did,
   however, gain an understanding of the City’s method of accounting for disasterͲrelated
   costs and its procurement policies and procedures.


                                            RESULTS OF AUDIT

   City officials generally expended and accounted for PA funds according to Federal grant
   regulations and FEMA guidelines for the three projects we audited. The City did not,
   however, spend any money on the two projects we subjected to a limited review. In
   summary, our work identified $137,530 of unused funds and $6,000 in ineligible project
   costs.

             Summary of Costs Recommended for Deobligation and Disallowance
       Finding                        Subject                        Net Costs
           A                     Funds Not Used                          $137,530
           B                  Ineligible Project Costs                       6,000
       TOTAL                                                             $143,530

   Finding A: Funds Not Used

   City officials said that they informed FEMA that the City will not be claiming cost
   reimbursements totaling $137,530 for Projects 622 and 2585 at project closeout.

   Federal appropriations laws and the Statement of Federal Financial Accounting
   Standards (SFFAS) require Federal agencies to record obligations in the accounting
   records on a factual and consistent basis throughout the Government.3 That is, the
   agency must increase or decrease obligated funds when probable and measurable
   information becomes known (7 Government Accountability Office, Policy and
   Procedures Manual § 3.5.D; BͲ300480, April 9, 2003, and SFFAS Number 5, paragraphs


   3
    U.S. Government Accountability Office, Principles of Federal Appropriations Law, 3rd edition, volume II,
   February 2006, chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).

www.oig.dhs.gov                                        2                                                DS-12-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   19, 24, 25, and 29). Agencies must document both the initial recordings and the
   adjustments to recorded obligations.

   In addition, City records indicate that it informed Cal EMA on August 2006, and
   subsequently on September 2008, that it was not going to spend the funds authorized
   for Projects 622 and 2585. However, not until November 2011 did Cal EMA advise
   FEMA to deobligate the funding for both projects. As of the date of this report, FEMA
   was in process of completing the projects’ closeouts but had not deobligated the funds
   associated with those two projects.

   x   FEMA approved small Project 622 in the amount of $55,400 to complete debris
       removal work throughout the City. However, City officials said that they did not
       incur costs under this project because the debris removal was completed under
       another FEMAͲfunded project (1803).

   x   FEMA approved large Project 2585 in the amount of $82,130 to complete road
       repair work. However, City officials said that the work was completed by a private
       developer, and the project’s funding was not used.

   City officials and Cal EMA agreed that no cost was incurred under Projects 622 and
   2585, and those funds should be deobligated. Cal EMA officials explained that they
   were waiting for project closeout to advise FEMA to deobligate the unneeded funding
   for the two projects.

   Deobligating unneeded funding in a timely manner (1) releases funds to cover cost
   overruns on other projects associated with the disaster, (2) provides a more accurate
   status of PA program costs for a disaster, and (3) is consistent with appropriations law
   and SFFAS Number 5, which require obligations/liabilities in FEMA’s accounting system
   to be recorded accurately and supported. Therefore, FEMA should deobligate $137,530
   in unneeded PA funds for Projects 622 and 2585, and put those funds to better use.

   Finding B: Ineligible Project Costs

   The City charged $6,000 in landscaping and irrigation cost to Project 1827 that was not
   approved under FEMA’s statement of work.

   Federal work eligibility standards at 44 CFR 206.223 stipulate that an item of work must
   be required as a result of a major disaster to be eligible for financial assistance
   (206.223(a)(1)). FEMA PA guidelines state that the replacement of trees, shrubs, and
   other ground cover is not eligible. This restriction applies to trees and shrubs in
   recreational areas such as parks, as well as trees and shrubs associated with public



www.oig.dhs.gov                                3                                          DS-12-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   facilities, such as those located in the median strips along roadways and as landscaping
   for public buildings (FEMA PA Guide 322, October 1999, p. 60).

   City officials and Cal EMA agreed that the $6,000 in landscaping and irrigation cost
   charged to Project 1827 was ineligible.

   The landscaping and irrigation work is unrelated to the disaster and ineligible under
   FEMA’s guidelines. Therefore, we question the project cost of $6,000 as ineligible
   because it was not required as a result of the disaster.


                                    RECOMMENDATIONS

   We recommend that the FEMA Region IX Administrator:

   Recommendation #1: Deobligate $137,530 (Federal share $103,148) from Projects 622
   and 2585 and put those Federal funds to better use (finding A).

   Recommendation #2: Disallow $6,000 (Federal share $4,500) in ineligible Project 1827
   costs (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of this audit with City officials during our audit, and have
   included their comments in this report, as appropriate. We also provided written
   summaries of our findings and recommendations in advance to the City officials on June
   14, 2012, and discussed them at an exit conference held on June 19, 2012. City officials
   agreed with findings A and B. FEMA and Cal EMA officials withheld further comment
   until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. To promote
   transparency, this report will be posted to our website. Significant contributors to this
   report were Humberto Melara, Louis Ochoa, Renee Gradin, Paul Sibal, and Elizabeth Finn.
www.oig.dhs.gov                                4                                           DS-12-13
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Should you have questions concerning this report, please contact me at (202) 254Ͳ4100
   or Humberto Melara at (510) 637Ͳ1463.




www.oig.dhs.gov                              5                                      DS-12-13
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
                                                                                                EXHIBIT A


                                   Schedule of Audited Projects
                                December 17, 2005, to June 19, 2012
                                    City of Vacaville, California
                                FEMA Disaster Number 1628ͲDRͲCA


                                                                    Project Costs
                       Project         Project                   Recommended for
           Project      Award          Charges              Deobligation Disallowance
          Number       Amount         Reviewed               Finding A        Finding B
          Projects Audited
            1827        $594,545        $837,436                                         $6,000
            2448         276,328         411,897
            3812         209,825         294,405
          Projects Receiving a Limited Review
            6221         $55,400                                  $55,400
            2585           82,130                                  82,130
            Total     $1,218,228 $1,543,7382                     $137,530                $6,000
           1
             Small project.
           2
             The three large projects we reviewed incurred $463,040 in cost overruns, of which the City
           properly informed FEMA through Cal EMA.




www.oig.dhs.gov                                       6                                               DS-12-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   APPENDIX A
   Report Distribution
   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code GͲ12Ͳ018)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits

   Subgrantee (City of Vacaville)

   Director of Finance & Information Technology
   Audit Liaison, Accountant II




www.oig.dhs.gov                                7                   DS-12-13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
